Attorneys for Petitioner
Kosta Stanko Stojilkovic
Counsel of Record
Wilkinson Stekloff LLP
2001 M Street NW, 10th Floor
Washington, DC 20036
kstojilkovic@wilkinsonstekloff.com
(202) 847-4045
Attorneys for Respondent
Benna Ruth Solomon
Counsel of Record
Corporation Counsel of the City of Chicago
2 N. LaSalle St., Ste. 580
Chicago, IL 60602
benna.solomon@cityofchicago.org
(312)744-7764

Attorneys for Petitioner
Kosta Stanko Stojilkovic
Counsel of Record
Wilkinson Stekloff LLP
2001 M Street NW, 10th Floor
Washington, DC 20036
kstojilkovic@wilkinsonstekloff.com
(202) 847-4045
Attorneys for Respondent
Benna Ruth Solomon
Counsel of Record
Corporation Counsel of the City of Chicago
2 N. LaSalle St., Ste. 580
Chicago, IL 60602
benna.solomon@cityofchicago.org
(312)744-7764

